     Department of Homeland Security





           FEMA Public Assistance Grant Funds
       Awarded to the City of Pompano Beach, Florida -
                     Hurricane Wilma




DA-12-16                                          May 2012

                               OFFICE OF INSPECTOR GENERAL
                                                   of Homeland




                                             ~AY      1 2012
MEMORANDUM FOR:                     Major p, (Phil) May
                                     gional Administrator, Re 'on IV
                                                             ;;ment Agency

FROM:
                                    Assis nt Inspector eneral
                                    Office of Emergency Management Oversight

SUBJECT:                            FfMA Public A5sistance Grant Funds Awarded to the
                                    City of Pompano Beach, Florida - Hurricane Wilma
                                    FEMA Disaster Number 1609-DR-FL
                                    Aud it Report Number DA-12-16

We audited public assistance funds awarded to the City of Pompano Beach, Florida,
(City) (FIPS Code 011-58050-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to federal regulations and FEMA guidelines.

The City received a public assistance award of $10.3 million from the Florida Division
of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Wilma, which occurred in October 2005. The award provided 100% FEMA
funding for debris removal, emergency protective measures, and repairs to facilities
and buildings_ The award consisted of 14 large projects and 13 small projects!

We reviewed costs totaling $8.3 million claimed under one large project and three
small projects (see Exhibit, Schedule of Projects Audited). The audit covered the
period from October 24, 200S, to Juty 20, 2011, during whkh the City received $8,2
million of FEMA funds under the projects reviewed. At the time of the audit, work
under the projects was complete, butthe City had not submitted a final claim on
project expenditures to the State,

We conducted this performance audit pursuant to the Inspector General Act of 1978,
as amended, and according to generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,




1 Federal reEul.tion, in effl'Ct "I the time of Hurricane Wilma "'tthe large proje<1tr.reshold at $57,500,
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   appropriate evidence to provide a reasonable basis for our findings and conclusions
   based upon our audit objective. We believe that the evidence obtained provides a
   reasonable basis for our findings and conclusions based upon our audit objective.
   We conducted this audit by applying the statutes, regulations, and FEMA policies in
   effect at the time of the disaster.

   We interviewed FEMA, State, and City officials; judgmentally selected project costs
   (generally based on dollar value); reviewed the City’s procurement policies and
   procedures; reviewed applicable federal regulations and FEMA guidelines; and
   performed other procedures considered necessary to accomplish our audit objective.
   We did not assess the adequacy of the City’s internal controls applicable to its grant
   activities because it was not necessary to accomplish our audit objective. However, we
   gained an understanding of the City’s method of accounting for disaster-related costs
   and its policies and procedures for administering activities provided for under the FEMA
   award.

                                   RESULTS OF AUDIT

   The City generally accounted for and expended FEMA grant funds according to
   federal regulations and FEMA guidelines. However, we identified $29,683 of
   ineligible project charges for small projects that were not completed.

   According to 44 CFR 206.205(a), failure to complete work under a small project may
   require that the federal payment be refunded. In addition, FEMA’s Public Assistance
   Guide (FEMA 322, April 1999, p. 114), states that a grant recipient has 18 months from
   the disaster declaration date to complete work under permanent repair projects. The
   State may grant extensions for an additional 30 months under extenuating
   circumstances, and FEMA may grant extensions beyond the State's authority
   appropriate to the situation. It has been 76 months since Hurricane Wilma hit the City
   of Pompano Beach, Florida.

   The City received $58,375 of FEMA funding under three small projects to complete
   permanent repairs to damaged facilities. However, the City could not provide evidence
   to show that $29,683 of the items listed in the projects' scope of work had been
   completed. Because FEMA had not granted a time extension beyond the Sate's
   Authority (48 months), we question the $29,683 as shown in table 1.




    



www.oig.dhs.gov                               2                                          DA-12-16

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                            Table 1: Small Projects Not Completed 

                  Project   Category of        Amount            Amount
                  Number       Work      Awarded/Received       Questioned
                   1537          G                  $ 25,007           $11,436
                   6166          G                    10,105             1,840
                   6279          E                    23,263            16,407
                   Total                             $58,375           $29,683

                                    RECOMMENDATION

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Disallow $29,683 of ineligible costs claimed for work not
           completed under small projects.

                        DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the audit results with City, State, and FEMA officials during our audit. We
   also provided written summaries of our findings and recommendations in advance to
   these officials and discussed them at an exit conference held on February 24, 2012. City
   officials withheld comments pending receipt of the final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were David Kimble, William Johnson, Oscar Andino, Jerry Aubin, and Calbert
   Flowers.

   Please call me with any questions, or your staff may contact David Kimble at
   (404) 832-6702.




www.oig.dhs.gov                               3                                       DA-12-16

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   cc: 	   Administrator, FEMA
           Audit Liaison, FEMA Region IV
           Audit Liaison, FEMA (Job Code G-12-001)
           Audit Liaison, DHS




www.oig.dhs.gov                              4                    	   DA-12-16

                      OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


   Exhibit
                          Schedule of Projects Audited 

                        October 28, 2005, to July 20, 2011 

                         City of Pompano Beach, Florida 

                       FEMA Disaster Number 1609-DR-FL 


                      Project         Amount         Amount
                      Number          Awarded       Questioned
                  Large Projects:
                       2484          $8,199,967                $0

                  Small Projects:
                       1537             $25,007        $11,436
                       6166              10,105          1,840
                       5774              23,263         16,407
                    Subtotal            $58,375        $29,683
                     Total           $8,258,342        $29,683




www.oig.dhs.gov                         5                           DA-12-16

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
